CERTIFICATE OF COMPLIANCE
No
Richard Lee Abrams
Petitioner
vs

Gavin Newsom, in his official capacity as Governor of
the State of California
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the petition for
the writ of certiorari contains 3,186 words (per WordPerfect), excluding the
parts of the Petition that are exempted by Supreme Court Rule33.1(d).
I declare under penalty of perjury that the foregoing is true and correct,
executed on September 15, 2020.

(Richard &ee Abrams
Richard Lee Abrams
(electronically signed)

Proof of Service By US Mail and Email
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES

I am reside in the County of Los Angeles, State of California and I am over the age
of eighteen (18) years and I am not a party to this within action. My address is 7500
Laurel Canyon Boulevard, #218, North Hollywood, California 91605
On September 16, 2020 I served the following documents as follows:
1 PETITION FOR WRIT OF CERTIORARI and
2. APPENDIX TO PETITION FOR WRIT OF CERTIORARI
on all interested parties by email and US mail of paper copies on Jose A. ZelidonZepeda, Deputy Attorney General, 455 Golden Gate Avenue, Suite 11000, San
Francisco, CA94102-7004 and email address to Jose.ZelidonZepeda@.doj .ca.gov

I declare under penalty of perjury of the laws of the State of California that
the foregoing is true and correct. Executed at Los Angeles, California, Wednesday,
September 16, 2020

Michael Nicastro
Michael Nicastro
electronically signed

